TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                     Affordable Care Act: Despite Initial
                   Challenges, the Internal Revenue Service
                    Successfully Implemented the Branded
                            Prescription Drug Fee



                                           May 16, 2014

                              Reference Number: 2014-33-032




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Redaction Legend:
 1 = Tax Return/Return Information



 Phone Number / 202-622-6500
 E-mail Address / TIGTACommunications@tigta.treas.gov
 Website        / http://www.treasury.gov/tigta
                                                  HIGHLIGHTS


AFFORDABLE CARE ACT: DESPITE                         The IRS developed a new reporting form
INITIAL CHALLENGES, THE INTERNAL                     (Form 8947, Report of Branded Prescription
REVENUE SERVICE SUCCESSFULLY                         Drug Information) and instructions. It also
IMPLEMENTED THE BRANDED                              developed procedures and a database to
                                                     process covered entities’ sales data and to
PRESCRIPTION DRUG FEE
                                                     accurately calculate the annual fees. TIGTA
                                                     reviewed a judgmental sample of
Highlights                                           15 Forms 8947 (representing more than
                                                     80 percent of the sales volume used to calculate
                                                     the fee) for Calendar Years 2011 and 2012 and
Final Report issued on May 16, 2014                  independently calculated the fee assessments.
                                                     TIGTA determined that the IRS’s calculation,
Highlights of Reference Number: 2014-33-032          assessment, and collection of the fees were
to the Internal Revenue Service Commissioner         accurate for our sampled cases.
for the Large Business and International
Division.                                            In addition, the IRS’s efforts to identify
                                                     noncompliant covered entities were effective.
IMPACT ON TAXPAYERS                                  Data on branded prescription drug sales are
Section 9008 of the Patient Protection and           reported to the IRS from both the covered
Affordable Care Act (ACA) imposes an annual          entities and the Government agencies, creating
fee on pharmaceutical manufacturers and              a dual reporting process. The IRS merged and
importers (referred to as covered entities) based    compared the data from each source to identify
on branded prescription drug sales made to           any inconsistencies and promptly followed up to
specified Government agencies. The fees              resolve them.
collected under the branded prescription drug        TIGTA identified one area requiring
fee program are to be transferred to the             management’s attention. From TIGTA’s sample
Medicare Part B Trust Fund, which is used to         of 15 cases, TIGTA determined that some
subsidize a portion of the Medicare Part B           covered entities incorrectly interpreted the
program. By accurately assessing and promptly        temporary regulations. Changes to Form 8947
collecting the branded prescription drug fees,       and its instructions should help clarify these
the IRS ensures timely availability of these funds   issues and reduce the burden on taxpayers.
to the Medicare Part B program.
                                                     WHAT TIGTA RECOMMENDED
WHY TIGTA DID THE AUDIT
                                                     TIGTA recommended that the Commissioner,
This audit was initiated to assess the IRS’s         Large Business and International Division,
efforts to implement the branded prescription        revise sections of Form 8947 and its instructions
drug fee, which went into effect in Calendar         to clarify certain issues. Covered entities should
Year 2011. The overall objective of this review      also be notified of these revisions.
was to determine the effectiveness of the IRS’s
efforts to implement Section 9008 of the ACA.        IRS management agreed with TIGTA’s
                                                     recommendation and plans to revise sections of
WHAT TIGTA FOUND                                     Form 8947 and its instructions to clarify taxpayer
                                                     understanding and reduce taxpayer burden.
The IRS successfully implemented the branded
prescription drug fee through collaborative
efforts with the various third parties and an
alternative approach to calculate and assess the
fee. The alternative approach was needed after
the IRS learned that the purchasing Government
agencies’ branded prescription drug sales data
would not be available until after the legislative
deadline for calculating the annual fee.
                                                DEPARTMENT OF THE TREASURY
                                                       WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                 May 16, 2014


 MEMORANDUM FOR COMMISSIONER, LARGE BUSINESS AND INTERNATIONAL
                DIVISION


 FROM:                        Michael E. McKenney
                              Acting Deputy Inspector General for Audit

 SUBJECT:                     Final Audit Report – Affordable Care Act: Despite Initial Challenges,
                              the Internal Revenue Service Successfully Implemented the Branded
                              Prescription Drug Fee (Audit # 201330328)

 This report presents the results of our review to determine the effectiveness of the Internal
 Revenue Service’s (IRS) efforts to implement Section 9008 of the Patient Protection and
 Affordable Care Act (ACA).1 This review is included in our Fiscal Year 2014 Annual Audit
 Plan and addresses the major management challenge of Implementing the Affordable Care Act
 and Other Tax Law Changes.
 Management’s complete response to the draft report is included as Appendix VI.
 Copies of this report are also being sent to the IRS managers affected by the report
 recommendation. If you have any questions, please contact me or Bryce Kisler, Acting Assistant
 Inspector General for Audit (Compliance and Enforcement Operations).




 1
  Pub. L. No. 111-148, 124 Stat. 119 (2010) (codified as amended in scattered section of the U.S. Code), as amended
 by the Health Care and Education Reconciliation Act of 2010, Pub. L. No. 111-152, 124 Stat. 1029.
                                   Affordable Care Act: Despite Initial Challenges,
                                      the Internal Revenue Service Successfully
                                   Implemented the Branded Prescription Drug Fee




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 4
          The Internal Revenue Service Successfully Implemented
          the Branded Prescription Drug Fee ............................................................... Page 4
          Revisions to Form 8947 and Its Instructions Could
          Reduce the Number of Covered Entity Fee Assessment
          Disputes and Refund Claims ......................................................................... Page 9
                    Recommendation 1:........................................................ Page 11


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 12
          Appendix II – Major Contributors to This Report ........................................ Page 15
          Appendix III – Report Distribution List ....................................................... Page 16
          Appendix IV – Outcome Measure ................................................................ Page 17
          Appendix V – Branded Prescription Drug Fee Calculation.......................... Page 18
          Appendix VI – Management’s Response to the Draft Report ...................... Page 23
      Affordable Care Act: Despite Initial Challenges,
         the Internal Revenue Service Successfully
      Implemented the Branded Prescription Drug Fee




              Abbreviations

ACA     Affordable Care Act
BPD     Branded Prescription Drugs
IRS     Internal Revenue Service
                               Affordable Care Act: Despite Initial Challenges,
                                  the Internal Revenue Service Successfully
                               Implemented the Branded Prescription Drug Fee




                                            Background

Effective January 1, 2011, Section 9008 of the Patient Protection and Affordable Care Act
(ACA)1 imposed an annual fee on businesses engaged in manufacturing and/or importing
branded prescription drugs (BPD) for sale to six specific types of Government programs.2 The
fees collected under the BPD fee program are to be transferred to the Medicare Part B Trust
Fund, which is used to subsidize a portion of the Medicare Part B program.
The six types of Government programs are presented in Figure 1 in addition to the Federal
departments and agencies having oversight of the programs.
       Figure 1: The Six Government Programs Specified by the BPD Legislation

    Federal Department          Agency                                         Government Program

    Department of Health and    The Centers for Medicare and Medicaid          Medicare Part B
    Human Services              Services
                                                                               Medicare Part D
                                                                               Medicaid
    Department of Defense       Defense Health Agency (formerly the            Any program under which
                                Military Health System)                        BPDs are procured.
                                                                               TRICARE Retail Pharmacy3
    Department of Veteran’s     Veteran’s Health Administration                Any program under which
    Affairs                                                                    BPDs are procured.
Source: Treasury Inspector General for Tax Administration’s analysis of Section 9008(e)(4) of the ACA.

The ACA defines a prescription drug manufacturer or importer with any amount of gross receipts
from BPD sales to one or more of the specified Government programs as a “covered entity.”
However, only a covered entity with net sales greater than $5 million in any given year is
assessed a portion of the annual BPD fee. Each covered entity’s fee is based on its percentage of
total qualifying sales in relation to the population of all covered entities with net sales greater



1
  Pub. L. No. 111-148, 124 Stat. 119 (2010) (codified as amended in scattered section of the U.S. Code), as amended
by the Health Care and Education Reconciliation Act of 2010, Pub. L. No. 111-152, 124 Stat. 1029.
2
  The six Government programs are specified in Section 9008(e)(4) of the ACA and shown in Figure 1 of this report.
3
  TRICARE is a health care program for active duty and retired members of the uniformed services, their families,
and survivors.
                                                                                                           Page 1
                                Affordable Care Act: Despite Initial Challenges,
                                   the Internal Revenue Service Successfully
                                Implemented the Branded Prescription Drug Fee



than $5 million during the same year.4 As a result, all covered entity BPD fee assessments for a
specific fee year5 will total the BPD fee mandated by law for that year.
The first year of the BPD fee program was Fee Year 2011. The total BPD fee started at
$2.5 billion for Fee Year 2011 and continues in varying amounts for the subsequent years as
detailed in Figure 2.
                                       Figure 2: Annual Branded
                                   Prescription Drug Fees by Fee Year

                                         Fee Year                   Total Fee Amount

                                           2011                         $2.5 billion
                                           2012                         $2.8 billion
                                           2013                         $2.8 billion
                                           2014                         $3.0 billion
                                           2015                         $3.0 billion
                                           2016                         $3.0 billion
                                           2017                         $4.0 billion
                                           2018                         $4.1 billion
                                   2019 and thereafter                  $2.8 billion
                            Source: Health Care and Education Reconciliation Act of 2010.

The Internal Revenue Service (IRS) has a significant role in the administration of the ACA, with
the responsibility to implement and oversee the numerous tax law changes—one of which
includes calculating and assessing the annual BPD fee. To calculate this fee, the IRS must first
obtain the BPD sales data from two sources: the covered entities and the Government agencies
responsible for the specified Government programs. The covered entities file Form 8947, Report
of Branded Prescription Drug Information, with the IRS to report the BPDs sold to the
Government agencies. The Government agencies provide the sales data, including dollar value,
for the BPDs purchased from the covered entities each year. The IRS matches the BPDs
reported by the Government agencies as purchased to the BPDs reported as sold on the
Forms 8947 filed by the covered entities. The IRS then uses this information to calculate and
assess the BPD fee.
By April/May of each calendar year, the IRS notifies each covered entity of its preliminary fee
calculation using Letter 4657, Notice of Preliminary Calculation. At this point, each covered

4
    See Appendix V for a detailed explanation of the fee calculation and adjustment process.
5
    The fee year is the calendar year in which the BPD fee must be paid to the Government.
                                                                                               Page 2
                           Affordable Care Act: Despite Initial Challenges,
                              the Internal Revenue Service Successfully
                           Implemented the Branded Prescription Drug Fee



entity has an opportunity to dispute the preliminary fee calculation by submitting specific
information identifying the error with an explanation of why the IRS or Government agency
should use the revised data from the covered entity.
After considering any dispute requests, the IRS sends out its final fee assessments to the covered
entities by August 31 of each calendar year using Letter 4658, Notification of Final Fee
Calculation. Each covered entity must then pay its final fee in full by September 30. Even if a
covered entity does not agree with the final fee assessed after the dispute resolution process, the
covered entity is still required to pay the full fee amount.
If, after paying the final fee, a covered entity still believes that the fee was incorrect, it can make
a formal request for a refund from the IRS by submitting Form 843, Claim for Refund and
Request for Abatement. If the IRS determines that it made an administrative error, it has the
authority to correct the mistake and issue a refund. However, if the IRS does not approve the
refund request, the ACA allows for the covered entity to file a lawsuit to attempt to recover any
amount claimed.
This review was performed with information obtained from the ACA Project Management
Office and the Large Business and International Division’s Pre-Filing and Technical Guidance
function in Washington, D.C., during the period October 2012 through November 2013. We
conducted this performance audit in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objective. Detailed information on our audit
objective, scope, and methodology is presented in Appendix I. Major contributors to the report
are listed in Appendix II.




                                                                                                Page 3
                          Affordable Care Act: Despite Initial Challenges,
                             the Internal Revenue Service Successfully
                          Implemented the Branded Prescription Drug Fee




                                 Results of Review

The Internal Revenue Service Successfully Implemented the Branded
Prescription Drug Fee
Although the IRS faced significant challenges, it quickly developed guidance and new processes
for implementing the new ACA provision and successfully implemented the BPD fee program
through collaboration with the covered entities and specified Government agencies. The IRS
developed an alternative approach to calculate and assess the fee. The alternative approach was
needed after the IRS learned that Government BPD sales data would not be available until after
the legislative deadline for calculating the annual BPD fee. In addition, the IRS needed to
develop a new reporting form and implement a new process to accurately calculate the fee
assessments and adjustments, as well as build a database application to effectively manage the
new BPD business processes. The IRS also developed a process to identify and address any
noncompliant pharmaceutical companies to ensure that they complied with the law.

Through collaborative efforts, the IRS obtained the necessary information to
administer the BPD fee
To successfully implement the BPD fee, the IRS needed to obtain information from both the
covered entities and the Government agencies that purchased the BPDs. Beginning in Fiscal
Year 2010, the IRS issued a series of public notices providing details about critical program
information and requirements for both parties. The IRS solicited comments from the covered
entities to assist in the development of the regulations governing the BPD fee program.
Temporary regulations for the program were published in August 2011 covering a variety of
topics, including critical program definitions, information reporting requirements, explanations
of fee assessment and fee adjustment calculations, and information on how to dispute an assessed
fee and how to submit a refund claim. We reviewed the temporary regulations and determined
that they contained adequate information to notify covered entities of the new process to collect
the mandated BPD fee.
To address the public comments and revisions needed based on the first year of the program, the
IRS updated program guidance and issued new notices. This guidance included a schedule of
due dates for the mailing of the preliminary fee letters (Letter 4657), dispute filing, and the
mailing of the final fee letters (Letter 4658). By the end of our fieldwork, the IRS was finalizing
its guidance. It is required to issue the final regulations by August 2014.
The IRS also needed to develop new procedures and guidelines for the Government agencies to
follow when submitting BPD sales data. Early in the planning for the BPD fee program, the IRS

                                                                                            Page 4
                                Affordable Care Act: Despite Initial Challenges,
                                   the Internal Revenue Service Successfully
                                Implemented the Branded Prescription Drug Fee



collaborated with the Government agencies regarding the time frames the BPD sales data could
be made available to the IRS. The ACA specifies that the allocation of the annual BPD fee be
based on BPD sales from the calendar year immediately preceding the fee year. However, not all
of the specified Government agencies were able to provide the BPD sales information early
enough in the calendar year for the IRS to complete the BPD fee processing within the time
frame set forth in the ACA.6
To overcome this obstacle, IRS analysts developed an innovative two-step approach to calculate
the covered entities’ BPD fees by the mandated deadline. The IRS used two-year-old prior BPD
sales data as an estimate instead of the immediately preceding year’s data. When the
immediately preceding year’s BPD sales data became available in the following year, the current
year’s BPD fee was adjusted for the difference between the actual BPD sales data and the
two-year prior BPD sales data used in the estimate.7
The adjustment entered on the current fee year can be either a positive or a negative amount and
corrects the discrepancy between the two-year-old BPD sales data used and the one-year-old
BPD sales data. This “estimate and adjust” process enabled the IRS to meet the ACA’s
established schedule. Although this process helps to ensure that the BPD fee is accurately
allocated among the various covered entities by the second year, the fee assessments on the
covered entities’ tax accounts are generally not correct for the fee year on which they appear
because of the one-year lag before correction.

The IRS developed procedures to process data and accurately calculate the
BPD fees
The BPD project team sought advice from the IRS’s Office of Chief Counsel in developing new
policies and procedures for the BPD fee program. Counsel’s advice confirmed the IRS’s
authority to request that covered entities furnish an information statement for fee administration
purposes. As a result, the IRS developed Form 8947 for use by covered entities in reporting
qualifying drugs sold to participating Government agencies. A Form 8947 should be filed the
first year a covered entity participates in the program, but it does not need to be filed annually
unless there is a change in the BPDs sold. A covered entity should file an updated Form 8947
when there are changes in the types of drugs it sells to the Government. The form includes a
listing of BPD sales by the type of drug but does not require the reporting of the volume or dollar
value of the sales. The instructions pertaining to Form 8947 are extensive and generally include
sufficient information on how to complete the form.



6
  The fee process involves the initial calculation of the fees, a process to allow the covered entities to dispute the
assessed fees, final calculation of the fees as a result of any disputes, and issuance of the final fee letters to the
covered entities. The letters require covered entities to pay their portion of the fee by September 30 each year.
7
  See Appendix V for a detailed explanation of the fee calculation and adjustment process.
                                                                                                                  Page 5
                               Affordable Care Act: Despite Initial Challenges,
                                  the Internal Revenue Service Successfully
                               Implemented the Branded Prescription Drug Fee



In addition, the IRS developed internal procedures to assign specific tasks to IRS employees
within designated business units. For example, Forms 8947 are processed by employees in the
Wage and Investment Division’s Submission Processing function at the IRS campus8 in
Ogden, Utah. The procedures require IRS employees who initially receive the form to route it
to the Office of Tax Shelter Analysis for scanning and retention. The IRS also provided
Internal Revenue Manual update alerts to employees who assist covered entities, directing the
employees to the appropriate IRS function for assistance with Form 8947 processing, fee
assessment, dispute resolution, and refund claims. These new procedures helped the IRS
successfully implement the new BPD fee.
Implementation of the BPD fee also required the IRS to develop a database to manage the BPD
fee processes. After uploading and sorting sales data received from the Government agencies,
the BPD database combines it with data manually input from the Forms 8947 received from the
covered entities. The combined information is then validated, corrected, and updated before the
fee assessment is calculated.
The BPD database calculates the fee assessments and adjustments necessary to determine each
covered entity’s portion of the mandated BPD fee. The BPD database also generates the
preliminary and final fee notices to the covered entities and systemically posts the BPD
assessments and related transactions to the Business Master File.9
The IRS processed BPD fee assessments for 143 covered entities for Fee Year 2011. The
following year, the IRS processed an additional 17 fee assessments, increasing the total to
160 covered entities for Fee Year 2012. To evaluate the accuracy of the BPD fees assessed to
the covered entities, we selected a judgmental sample10 of 15 covered entities (out of 160) that
ranked overall highest in sales volumes for Calendar Year 2010. We selected these 15 covered
entities because they were responsible for 82.4 percent of all Sales Taken Into Account11 used to
calculate the fee assessments for Fee Year 2012.
We reconstructed the sales totals for each of the 15 covered entities in our judgmental sample
and manually recomputed the unadjusted fee assessments, applicable adjustments, and final
adjusted fee assessments to confirm the accuracy of the BPD database application programming.
For our judgmental sample of 15 covered entities, our manual computations agreed 100 percent
with the Fee Year 2012 final fee assessments issued by the IRS.



8
  The data processing arm of the IRS. The campuses process paper and electronic submissions, correct errors, and
forward data to the Computing Centers for analysis and posting to taxpayer accounts.
9
  The Business Master File is an IRS database that consists of Federal tax-related transactions and accounts for
businesses. These include employment taxes, income taxes on businesses, and excise taxes.
10
   A judgmental sample is a nonstatistical sample, the results of which cannot be used to project to the population.
11
   Sales Taken Into Account is the BPD sales amount after the application of a percentage adjustment. See
Appendix V for the calculation to determine Sales Taken Into Account.
                                                                                                              Page 6
                          Affordable Care Act: Despite Initial Challenges,
                             the Internal Revenue Service Successfully
                          Implemented the Branded Prescription Drug Fee



We also evaluated the accuracy of the BPD database application’s process for recording the fee
assessment transactions to the covered entities’ tax accounts. We reviewed these transactions for
all 143 covered entities for Fee Year 2011 and all 160 covered entities for Fee Year 2012. For
both fee years, we found that all transactions related to BPD processes were accurately and
timely recorded to the covered entities’ Business Master File tax accounts. However, for Fee
Year 2012, *****************************1***********************************
***************************************1**************************************
*******************1*************.
**********************1***********************. However, it was not part of our
judgmental sample. ***************************1*******************************
*************************************1****************************************
*************************************1****************************************
*************************************1****************************************
*************************************1************************************.
Because the ACA provides the IRS with the authority to fix an administrative error, ***1****
*************************************1****************************************
*************************************1****************************************
*************************************1****************************************
****1***.
Furthermore, the IRS has taken steps to reduce the probability of incorrectly routing BPD dispute
claims in the future. The IRS issued additional guidance to its employees that clarify the process
for handling and routing BPD documents. New information in the instructions for completing
the dispute form states that if a covered entity files a dispute but is not contacted by the IRS
within 10 days of submission, the covered entity should contact the IRS. Additionally, the
instructions for filing the Form 8947, as well as the dispute and refund request forms, have been
updated to include directions to the covered entities for them to include the words “BPD Fee” in
the mailing address. These changes should help ensure that properly submitted BPD forms are
routed to the appropriate function within the IRS to be worked.

Efforts to identify noncompliant covered entities are effective
To ensure that the information from the covered entities’ Forms 8947 is complete and accurate,
the BPD Database performs an automated match of the Form 8947 data to the BPD sales data
provided by the Government agencies. Any mismatches (which might occur from issues such as
omitted, invalid, or incorrectly transcribed drug codes, errors in rebate amounts, or errors in the
classification of a drug) will generate an error notice that is manually reviewed by an IRS
analyst. The analyst conducts research and corrects and updates the data in the BPD Database
before the preliminary fee assessment is calculated. This process is known as “BPD due
diligence.”


                                                                                            Page 7
                             Affordable Care Act: Despite Initial Challenges,
                                the Internal Revenue Service Successfully
                             Implemented the Branded Prescription Drug Fee



Because of the dual reporting by both the covered entities and the Government agencies, any
reporting noncompliance is identified through the BPD due diligence process. Using this
process, the IRS identified and corrected 861 omitted BPDs for the 15 covered entities in our
judgmental sample, representing an additional $932 million in applicable drug sales that were
then included in the BPD fee calculation and assessment for Fee Year 2012.
In addition, payment compliance has generally been very high. For Fee Year 2011, 92 of the
143 covered entities received fee assessments, and all entities paid their assessed fees timely.12
In Fee Year 2012, 114 of the 160 covered entities received BPD fee adjustments or assessments,
resulting in 102 entities with balances due and 12 entities with overpaid accounts once the actual
Calendar Year 2010 sales adjustments were factored into the calculation. Of the 102 entities
with balances due, 95 complied with timely payments by the due date of September 30, 2012.
Of the seven remaining balance due accounts, four were paid within 30 days of the due date and
the other three were resolved shortly thereafter with minimal compliance contact to the covered
entities from the IRS. In addition, for the 12 covered entities with overpaid accounts as a result
of the adjustment, the IRS timely issued refunds. Figure 3 presents BPD fee program
compliance statistics for Fee Years 2011 and 2012.
                      Figure 3: BPD Fee Program Compliance Statistics

                                                                 Fee Year 2011          Fee Year 2012
       Program Category                                        (Sales Year 2009)      (Sales Year 2010)

       BPD Fee to Be Allocated                                     $2.5 Billion           $2.8 Billion
       Total Covered Entities                                       143                    160
       Covered Entities That Did Not Meet BPD Fee                    51                     46
       Criteria
       Covered Entities That Met BPD Fee Criteria                    92                    102
           Covered Entities That Fully Paid Timely                          92                     95
           Covered Entities That Fully Paid Late                             0                      7
       Covered Entities With an Overpayment                           0                     12
           Refunds Issued Timely                                             0                     12
      Source: Treasury Inspector General for Tax Administration’s analysis of IRS BPD fee program data
      and covered entities’ IRS tax account records.




12
  Some covered entities had BPD sales of less than $5 million and therefore were not assessed any BPD fee in
Fee Years 2011 or 2012.
                                                                                                          Page 8
                               Affordable Care Act: Despite Initial Challenges,
                                  the Internal Revenue Service Successfully
                               Implemented the Branded Prescription Drug Fee



Revisions to Form 8947 and Its Instructions Could Reduce the
Number of Covered Entity Fee Assessment Disputes and Refund
Claims
We noted one area requiring management’s attention that would help reduce taxpayer burden
and improve the efficiency of the BPD process. Fee assessment disputes related to BPD sales
may arise from a variety of reasons, such as errors in the Government agency sales data,
mathematical calculations, or Medicaid State rebate13 data. Errors related to Government agency
data are forwarded to the responsible agency to review. Any discrepancies should be resolved
together with the related covered entity. Because the dispute resolution process has only a
limited window of opportunity, if a covered entity is nonresponsive or not timely responsive to a
Government agency’s attempt to resolve a dispute, the Government agency will reject the error
assertion. If a covered entity and the Government agency cannot reach agreement on the
disputed matter, the IRS will rely on the Government agency’s BPD sales data. The IRS does
not mediate between the Government agency and the covered entity for this type of discrepancy.
For all other types of errors unrelated to sales, the IRS makes the final dispute decisions. These
errors include classification of non-BPDs, ownership of drugs, etc. In Calendar Year 2011, the
IRS issued Revenue Procedures14 that established the BPD fee dispute resolution process. For
subsequent years, updated guidance for the dispute process has been issued in notices.15
In our judgmental sample of 15 covered entities, 10 filed fee assessment dispute claims for Fee
Year 2012. We reviewed each dispute claim to identify the issues involved, whether the IRS or a
Government agency resolved the dispute, whether an assessment change resulted, and whether
the change was for the full disputed amount or a lesser portion. Of the 10 covered entities filing
disputes, the IRS adjusted seven of the fee assessments. For the remaining three dispute claims,
no changes to the fee assessments were made. In all 10 cases, we determined that the fee
assessment disputes were appropriately handled.
However, we identified that four covered entities filed fee assessment dispute claims resulting, in
part, from their incorrect interpretation of the temporary regulations. These included the
following.




13
   The Medicaid Drug Rebate Program is a partnership between the Centers for Medicaid and Medicare Services of
the Department of Health and Human Services, State Medicaid agencies, and participating drug manufacturers that
helps to offset the Federal and State costs of most outpatient prescription drugs dispensed to Medicaid patients. It is
authorized by Section 1927 of the Social Security Act.
14
   Revenue procedures are official published statements of the IRS about procedural and administration matters of
the tax laws, first published in the Internal Revenue Bulletin and later transferred to the Cumulative Bulletin.
15
   A notice is an official IRS public pronouncement that may contain guidance that involves interpretations of the
Code or other provisions of the law.
                                                                                                               Page 9
                               Affordable Care Act: Despite Initial Challenges,
                                  the Internal Revenue Service Successfully
                               Implemented the Branded Prescription Drug Fee



        Expired Drugs: 16 The covered entities stated that expired drugs should be omitted from
         the calculation. According to Temporary Regulation 51.2T(c), expired drugs are BPDs
         and are to be included in the BPD fee filings. The expired condition does not change the
         applicability to the program requirements.17
        BPD Ownership: The covered entities stated that ownership of the drug had changed and
         should be omitted from the calculation. According to Temporary Regulations 51.2T(i)
         and (m), drug ownership is determined by the Labeler Code18 as of December 31 of the
         sales year. If a covered entity transfers ownership rights to manufacture or import a BPD
         but does not change the Labeler Code, the IRS will assess all post-transfer sales to the
         former owner until the Labeler Code reflects the new ownership. Under the BPD fee
         program, the Labeler Code must be changed before the change of ownership is
         recognized.
In addition, during Calendar Years 2011 and 2012, the IRS received four refund claims from
three covered entities. We reviewed all four refund claims ****1*********************
*************************************1****************************************
*****1*******.
        Orphan Drugs: 19 ***********************1**************************
         ****1****According to Temporary Regulations 51.2T(d) and (k), orphan drugs are
         subject to the rules established for claiming a tax credit under Internal Revenue Code
         Section 45C, the Orphan Drug Credit. Drugs claimed for the Orphan Drug Credit are
         generally not considered BPDs and are not subject to the BPD fee assessment. However,
         if the Orphan Drug Credit is not claimed or is disallowed as a drug for that particular
         orphan disease or if the orphan drug is subsequently approved by the Food and Drug
         Administration for any treatment of diseases or conditions that are not rare, the drug loses
         the “orphan” status and becomes a BPD. If a covered entity mistakenly lists orphan
         drugs on its Form 8947 as BPDs, the IRS would interpret this as the covered entity
         providing notice of a change to the drugs’ “orphan” status.
We reviewed Form 8947 and accompanying instructions and found that they do not provide
specific guidance regarding these three issues. Revision of Form 8947 and its instructions to

16
   If the drug expiration date was reached by the end of the sales year, the drug was considered to be expired.
17
   Covered entities do not sell drugs that are past their expiration date to Government agencies; however, electronic
management of Government agency data records may result in reporting a BPD as expired that was not expired at
the time of purchase.
18
   The Labeler Code is the leading five digits of a unique number assigned to each drug through a national coding
system.
19
   An orphan drug is a pharmaceutical agent that has been developed specifically to treat a rare medical condition,
the condition itself being referred to as an orphan disease. The assignment of orphan status to a disease and to any
drugs developed to treat it is a matter of public policy in many countries and has resulted in medical breakthroughs
that may not have otherwise been achieved due to the economics of drug research and development.
                                                                                                             Page 10
                         Affordable Care Act: Despite Initial Challenges,
                            the Internal Revenue Service Successfully
                         Implemented the Branded Prescription Drug Fee



clarify common issues that may be misunderstood by covered entities should prevent or reduce
future fee assessment disputes and refund claims. Furthermore, addressing these errors with the
covered entities through planned outreach would elevate the issues to wider attention and ensure
continued compliance.

Recommendation
Recommendation 1: The Commissioner, Large Business and International Division, should
revise the following sections of Form 8947 and its instructions as well as notify the covered
entities of these revisions:
      “General Instructions/Definitions/Branded prescription drug sales” should address
       expired drugs per Temporary Regulation 51.2T(c).
      “Specific Instructions/Item B. Covered Entity Information/Covered entity” should clarify
       ownership of a BPD Labeler Code per Temporary Regulations 51.2T(i) and (m).
      Schedule D and “Specific Instructions/Schedule D. Branded Prescription Drug Medicaid
       State Supplemental Rebates – Previously Reported National Drug Codes” should alert
       filers that unless the status of an orphan drug is being changed, it should not be listed on
       Schedule D per Temporary Regulations 51.2T(d) and (k).
   Management’s Response: IRS management agreed with this recommendation. The
   Large Business and International Division’s Pre-Filing and Technical Guidance Function will
   revise the instructions for the three sections of Form 8947 by March 31, 2015, and will notify
   the covered entities of these revisions by the same date.




                                                                                           Page 11
                              Affordable Care Act: Despite Initial Challenges,
                                 the Internal Revenue Service Successfully
                              Implemented the Branded Prescription Drug Fee



                                                                                                 Appendix I

          Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine the effectiveness of the IRS’s efforts to
implement Section 9008 of the Patient Protection and Affordable Care Act.1 To accomplish our
objective, we:
I.      Determined whether the IRS obtained the information needed to properly carry out its
        duties with respect to the law.
        A. Reviewed Internal Revenue Manual 25.21.1 and alerts issued for BPD Fee Years2
           2011 and 2012 to identify IRS guidance issued for BPD fee assessments and
           determined whether the guidance was adequate.
        B. Interviewed BPD management and participated in a walk-through of the BPD fee
           calculation process to understand how the BPD assessment and adjustment
           calculations were performed.
        C. Conducted interviews with officials at the six specified Government agencies that
           participate in the BPD fee program to determine whether the IRS developed
           procedures and guidelines for Government agency sales report submissions. We also
           determined the earliest date BPD sales data could be provided to the IRS.
        D. Interviewed BPD management and reviewed Form 8947, Report of Branded
           Prescription Drug Information, and its instructions as well as the IRS’s Form 8947
           processing procedures to determine whether the IRS’s procedures for processing
           Forms 8947 and posting the fee assessment to covered entities’3 tax accounts were
           adequately documented.
II.     Determined whether the IRS developed and issued the proper guidance to the
        pharmaceutical manufacturers/importers and Government agencies by reviewing IRS
        issued public notices and temporary regulations for the BPD fee program. We also
        determined whether the guidance provided to the pharmaceutical manufacturers and
        importers for filing requirements, fee explanation, dispute process, and remittance of
        payment was sufficient.


1
  Pub. L. No. 111-148, 124 Stat. 119 (2010) (codified as amended in scattered section of the U.S. Code), as amended
by the Health Care and Education Reconciliation Act of 2010, Pub. L. No. 111-152, 124 Stat. 1029.
2
  The fee year is the calendar year in which the BPD fee must be paid to the Government.
3
  The ACA defines a prescription drug manufacturer or importer with any amount of gross receipts from BPD sales
to one or more of the six Government programs specified in the ACA as a “covered entity.”
                                                                                                         Page 12
                              Affordable Care Act: Despite Initial Challenges,
                                 the Internal Revenue Service Successfully
                              Implemented the Branded Prescription Drug Fee



III.     Determined whether the IRS correctly calculated and allocated the proper portion of the
         fees to the pharmaceutical manufacturers/importers.
         A. Obtained a copy of the BPD database application and electronically analyzed it to
            determine whether the BPD database contained records for all covered entities subject
            to fee assessments for Fee Years 2011 and 2012. We electronically matched
            independently obtained Government agency BPD sales reports to the BPD database
            records of sales used to assess the BPD fee for Fee Year 2012 to determine whether
            database records for Government agency sales were accurate.
         B. Electronically analyzed all Fee Years 2011 and 2012 covered entities’ Business
            Master File4 tax accounts for transaction codes5 related to the BPD fee program.
         C. Obtained a copy of the IRS’s BPD fee calculation formula and verified whether the
            computation produced accurate results.
         D. Selected a judgmental sample6 of 15 covered entities with the largest sales volumes
            for Calendar Year 2010 from a population of 160 covered entities. We electronically
            analyzed the BPD database records to determine whether the Forms 8947 for the
            sampled covered entities accurately reported all BPDs sold to the Government
            agencies.
         E. Reviewed the IRS’s due diligence process to determine whether it was effective in
            identifying any omitted drugs on the 15 sampled covered entities’ Forms 8947.
         F. Electronically recreated the Fee Year 2012 fee assessment process for the 15 sampled
            covered entities to determine whether the totals matched the IRS fee assessments.
            We manually recalculated the preliminary fees, adjustments, and the final fees for all
            15 sampled covered entities for Fee Year 2012.
         G. Electronically analyzed all Fee Years 2011 and 2012 covered entities’ tax accounts to
            determine whether they were documented on the Business Master File with the
            required fee assessment transaction codes and if the fee assessment amounts were
            accurately recorded in the tax account.
         H. Reviewed the dispute claims for the 10 covered entities in our judgmental sample that
            filed dispute claims to determine whether there were any errors common to multiple
            disputes.


4
  The Business Master File is an IRS database that consists of Federal tax-related transactions and accounts for
businesses. These include employment taxes, income taxes on businesses, and excise taxes.
5
  A three-digit code used to identify a processed transaction and to maintain a history of actions posted to a
taxpayer’s account on the Master File.
6
  A judgmental sample is a nonstatistical sample, the results of which cannot be used to project to the population.
Judgmental samples were used throughout because we did not intend to project the results to the entire population.
                                                                                                           Page 13
                         Affordable Care Act: Despite Initial Challenges,
                            the Internal Revenue Service Successfully
                         Implemented the Branded Prescription Drug Fee



       I. Electronically analyzed all Fee Years 2011 and 2012 covered entities’ tax accounts to
          determine whether they were documented on the Business Master File with the
          required fee payment transaction codes and whether the payment amounts were
          accurately recorded in the tax account.
       J. Reviewed the guidance and procedures for processing BPD refund requests as well as
          all refund claims filed.
IV.    Determined whether the IRS’s efforts to identify covered entity noncompliance and
       enforce compliance with the provisions of the law were effective.
       A. Interviewed Small Business/Self-Employed Division management regarding
          procedures for identifying covered entities not timely remitting BPD fee payments.
       B. Interviewed Small Business/Self-Employed Division management regarding
          procedures for satisfying a balance due BPD fee if a covered entity did not pay.
       C. Reviewed guidance for enforcement procedures used to collect delinquent BPD fees.
       D. Interviewed Small Business/Self-Employed Division management regarding
          enforcement actions taken on noncompliant covered entities for Fee Year 2012.
Data validation methodology
During this review, we relied on data extracts from the BPD Database and the Business Master
File, as well as Government agency BPD sales reports. Before relying on this data, we
conducted validation tests. As a result, we determined that the data used in our review were
sufficiently reliable to perform our audit analyses.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: the processes for planning, organizing,
directing, and controlling program operations for the implementation and operation of the BPD
fee program for Fee Years 2011 and 2012. We accomplished this by reviewing IRS published
guidance, reviewing IRS procedures, and interviewing IRS management. We also evaluated the
controls that are incorporated directly into computer applications to help ensure the validity,
completeness, and accuracy of transactions and data during application processing of BPD fee
assessments for Fee Years 2011 and 2012.




                                                                                        Page 14
                        Affordable Care Act: Despite Initial Challenges,
                           the Internal Revenue Service Successfully
                        Implemented the Branded Prescription Drug Fee



                                                                            Appendix II

                Major Contributors to This Report

Carl Aley, Acting Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Augusta R. Cook, Acting Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Nancy Nakamura, Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Bryce Kisler, Director
Doris Hynes, Audit Manager
Kim McMenamin, Lead Audit Evaluator
Todd Anderson, Senior Auditor
Gwendolyn Green, Senior Auditor
Gail Schuljan, Senior Auditor
James Allen, Information Technology Specialist




                                                                                    Page 15
                        Affordable Care Act: Despite Initial Challenges,
                           the Internal Revenue Service Successfully
                        Implemented the Branded Prescription Drug Fee



                                                                               Appendix III

                          Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Large Business and International Division SE:LB
Director, Affordable Care Act Office SE:ACA
Chief Financial Officer OS:CFO
Associate Chief Financial Officer for Financial Management OS:CFO:FM
Director, Pre-Filing and Technical Guidance, Large Business and International Division
SE:LB:PFTG
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Large Business and International Division SE:LB




                                                                                         Page 16
                             Affordable Care Act: Despite Initial Challenges,
                                the Internal Revenue Service Successfully
                             Implemented the Branded Prescription Drug Fee



                                                                                             Appendix IV

                                     Outcome Measure

This appendix presents detailed information on the measurable impact that our recommended
corrective action will have on tax administration. This benefit will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
   Reduction of Taxpayer Burden – Potential; five business taxpayers (i.e., covered entities)1
    affected (see pages 9-10).

Methodology Used to Measure the Reported Benefit:
The outcome measure is based on the five covered entities that filed *******1*********
***********1*****resulting, in part, from their incorrect interpretation of the temporary
regulations.




1
  The ACA defines a prescription drug manufacturer or importer with any amount of gross receipts from BPD sales
to one or more of the six Government programs specified in the ACA as a “covered entity.”
                                                                                                       Page 17
                             Affordable Care Act: Despite Initial Challenges,
                                the Internal Revenue Service Successfully
                             Implemented the Branded Prescription Drug Fee



                                                                                              Appendix V

           Branded Prescription Drug Fee Calculation

Each year, the amount of the total legislated BPD fee is allocated to each covered entity1 based
on a formula. The formula considers the ratio between an individual covered entity’s BPD Sales
Taken Into Account2 and the total BPD Sales Taken Into Account during the sales year for all
covered entities. BPD Sales Taken Into Account for each covered entity is determined based on
the BPD sales amounts and applicable percentages mandated by the ACA. The percentage
application of the sales amounts ensures that the covered entities benefitting the most from
selling BPDs to Government agencies are those that will be responsible for paying the greatest
percentage of the BPD fee. The first $5 million in net sales for all covered entities is exempt
from the BPD fee assessment calculation. Each successive sales amount is subject to a greater
percentage of the fee in the calculation process. Figure 1 provides the sales amounts used to
calculate each covered entity’s Sales Taken Into Account.
                       Figure 1: BPD Sales Amounts Used to Calculate
                            a Covered Entity’s Applicable BPD Fee

                                                                                Percentage of the
                                                                                Covered Entity’s
                 Covered Entity’s Yearly BPD Sales to Specified                   Sales Used to
                     Government Program by Sales Amount                         Calculate Its Fee

            Not more than $5 million                                                    0%
            More than $5 million but not more than $125 million                        10%
            More than $125 million but not more than $225 million                      40%
            More than $225 million but not more than $400 million                      75%
            More than $400 million                                                    100%
          Source: Patient Protection and Affordable Care Act, Pub. L. No. 111-148, 124 Stat. 119.

The ACA specifies that the allocation of the annual BPD fee should be based on BPD sales from
the calendar year immediately preceding the fee year.3 However, not all Government agencies
are able to provide the BPD sales data to the IRS in time for the IRS to calculate and assess the

1
  The ACA defines a prescription drug manufacturer or importer with any amount of gross receipts from BPD sales
to one or more of the six Government programs specified in the ACA as a “covered entity.”
2
  Sales Taken Into Account is the BPD sales amount after the application of a percentage adjustment.
3
  The fee year is the calendar year in which the BPD fee must be paid to the Government.
                                                                                                       Page 18
                             Affordable Care Act: Despite Initial Challenges,
                                the Internal Revenue Service Successfully
                             Implemented the Branded Prescription Drug Fee



fee. As a result, the allocation of the annual BPD fee is based on drug sales from the second
calendar year preceding the fee year; it is then adjusted in the subsequent year based on actual
sales data.
To illustrate the fee calculation for Fee Year 2011, a hypothetical example is presented in
Figure 2. Assume that “Company ABC” had total BPD sales to the Government agencies of
$133 million in Calendar Year 2009. Based on the formula contained in the law, the Calendar
Year 2009 BPD Sales Taken Into Account to calculate the Fee Year 2011 fee for Company ABC
would be $15.2 million. This amount is calculated as follows:
       None of the first $5 million of sales would be included ($5,000,000 x 0 percent).
       $12 million of next $120 million of sales would be included (sales between $5,000,000
        and $125,000,000: $120,000,000 x 10 percent = $12,000,000).
       $3.2 million of the remaining $8 million of sales would be included (sales between
        $125,000,000 and 225,000,000: $8,000,000 x 40 percent = $3,200,000).
            Figure 2: Hypothetical Calculation Example of Company ABC’s
            Calendar Year 2009 Sales Taken Into Account for Fee Year 2011

                                                                   Total                         Calendar
                                                                 Calendar                        Year 2009
                                                                 Year 2009       Percentage      BPD Sales
                                                                 BPD Sales         of Sales     of Company
                                                                    for            Used to      ABC Taken
            Amount of BPD Sales Amounts                          Company          Calculate         Into
           Used to Calculate Applicable BPD Fee                    ABC               Fee          Account

 Not more than $5 million                                         $5,000,000         0%                    $0
 More than $5 million but not more than $125 million            $120,000,000         10%         $12,000,000
 More than $125 million but not more than $225 million            $8,000,000         40%          $3,200,000
 More than $225 million but not more than $400 million                               75%                   $0
 More than $400 million                                                             100%                   $0
 Total for Covered Entity ABC                                   $133,000,000                     $15,200,000
Source: Treasury Inspector General for Tax Administration analysis of the ACA and a hypothetical example of a
pharmaceutical company’s applicable BPD sales.

This same calculation is performed for each covered entity. The calculated fees are then
summed to determine the Total BPD Sales Taken Into Account for Calendar Year 2009. The
Total BPD Sales Taken Into Account would then be used to apportion the $2.5 billion BPD fee
for Fee Year 2011. If the Total BPD Sales Taken Into Account for all covered entities selling

                                                                                                       Page 19
                             Affordable Care Act: Despite Initial Challenges,
                                the Internal Revenue Service Successfully
                             Implemented the Branded Prescription Drug Fee



BPDs to the Government agencies were $60 billion in Calendar Year 2009, the fee assessed to
Company ABC would be $633,333. This is based on its $15,200,000 BPD Sales Taken Into
Account divided by the $60 billion Total BPD Sales Taken Into Account for all covered entities
multiplied by the $2.5 billion total fee mandated for Fee Year 2011.
                $15,200,000           X $2,500,000,000 =          $633,333
              $60,000,000,000
To calculate the Fee Year 2012 BPD fee for Company ABC, the same formula used in the first
part of this example is applied using Calendar Year 2010 sales data. Continuing with the
example, Company ABC had total BPD sales to the Government agencies of $150 million in
Calendar Year 2010. Based on the formula contained in the law, the Calendar Year 2010 BPD
Sales Taken Into Account would be $22 million. This amount is calculated as follows:
       None of the first $5 million of sales would be included ($5,000,000 x 0 percent).
       $12 million of next $120 million of sales would be included (sales between $5,000,000
        and $125,000,000: $120,000,000 x 10 percent = $12,000,000).
       $10 million of the remaining $25 million of sales would be included (sales between
        $125,000,000 and 225,000,000: $25,000,000 x 40 percent = $10,000,000).
            Figure 3: Hypothetical Calculation Example of Company ABC’s
            Calendar Year 2010 Sales Taken Into Account for Fee Year 2012

                                                                   Total                         Calendar
                                                                 Calendar                        Year 2010
                                                                 Year 2010       Percentage      BPD Sales
                                                                 BPD Sales         of Sales     of Company
                                                                    for            Used to      ABC Taken
            Amount of BPD Sales Amounts                          Company          Calculate         Into
           Used to Calculate Applicable BPD Fee                    ABC               Fee          Account

 Not more than $5 million                                         $5,000,000         0%                    $0
 More than $5 million but not more than $125 million            $120,000,000         10%         $12,000,000
 More than $125 million but not more than $225 million           $25,000,000         40%         $10,000,000
 More than $225 million but not more than $400 million                               75%                   $0
 More than $400 million                                                             100%                   $0
 Total for Covered Entity ABC                                   $150,000,000                     $22,000,000
Source: Treasury Inspector General for Tax Administration analysis of the ACA and a hypothetical example of a
pharmaceutical company’s applicable BPD sales.


                                                                                                       Page 20
                         Affordable Care Act: Despite Initial Challenges,
                            the Internal Revenue Service Successfully
                         Implemented the Branded Prescription Drug Fee



If the Calendar Year 2010 Total BPD Sales Taken Into Account for all covered entities were
$63 billion, the fee for Company ABC would be $977,778 without factoring in the Fee Year
2011 fee adjustment. This is based on its $22,000,000 BPD Sales Taken Into Account divided
by the $63 billion Total BPD Sales Taken Into Account for all covered entities multiplied by the
$2.8 billion total fee mandated for Fee Year 2012.
               $22,000,000       X $2,800,000,000 =      $977,778
             $63,000,000,000
However, Company ABC’s portion of the Fee Year 2012 BPD fee needs to be adjusted based on
the actual amount of Calendar Year 2010 sales data for the Fee Year 2011 BPD fee. This
recalculated Fee Year 2011 fee will factor into the total fee assessed in Fee Year 2012.
The adjustment calculation (e.g., for Fee Year 2011) reflects the difference between:
      The allocated fee for the preceding fee year as originally determined using sales data
       from the second preceding calendar year (e.g., Calendar Year 2009), and
      The allocated fee for the preceding fee year as determined using sales data from the
       calendar year immediately preceding the fee year (e.g., Calendar Year 2010).
For example, for Calendar Year 2012, the adjustment amount for a covered entity will be the
difference between the Fee Year 2011 fee computed using Calendar Year 2009 sales data and
what the Fee Year 2011 fee would have been using Calendar Year 2010 sales data. For Fee
Year 2011, Company ABC was allocated and paid $633,333 of the BPD fee, which was based on
the $15,200,000 in BPD Sales Taken Into Account in Calendar Year 2009.
Company ABC’s BPD Sales Taken Into Account for Calendar Year 2010 was actually
$22,000,000, which is the amount that should have been the basis for the Fee Year 2011 fee as
mandated by the ACA. Therefore, the Fee Year 2011 BPD fee must be recalculated using the
Calendar Year 2010 BPD sales data ($873,016). The difference between what was allocated and
paid in Fee Year 2011 based on Calendar Year 2009 BPD sales data ($633,333) and what should
have been allocated and paid based on Calendar Year 2010 BPD sales data ($873,016) becomes
an adjustment amount (+$239,683). However, rather than assessing the covered entities a second
time for the Fee Year 2011 fee, this adjustment is added to the Fee Year 2012 BPD fee. In this
way, covered entities will only be assessed one fee each year. However, that fee amount will
eventually be recalculated and corrected the following year. The fee assessments on covered
entities’ tax accounts are generally never correct for the fee year on which they appear because
of the one-year lag before correction.




                                                                                          Page 21
                       Affordable Care Act: Despite Initial Challenges,
                          the Internal Revenue Service Successfully
                       Implemented the Branded Prescription Drug Fee



The Fee Year 2012 BPD fee for Company ABC is allocated based on Calendar Year 2010 BPD
sales data.
              $22,000,000      X $2,800,000,000 =    $ 977,778
            $63,000,000,000

Fee Year 2011 BPD fee adjustment amount              $ 239,683
Total fee allocated for Company ABC for
Fee Year 2012                                        $1,217,461




                                                                                Page 22
        Affordable Care Act: Despite Initial Challenges,
           the Internal Revenue Service Successfully
        Implemented the Branded Prescription Drug Fee



                                                   Appendix VI

Management’s Response to the Draft Report




                                                           Page 23
Affordable Care Act: Despite Initial Challenges,
   the Internal Revenue Service Successfully
Implemented the Branded Prescription Drug Fee




                                                   Page 24
Affordable Care Act: Despite Initial Challenges,
   the Internal Revenue Service Successfully
Implemented the Branded Prescription Drug Fee




                                                   Page 25
                         Affordable Care Act: Despite Initial Challenges,
                     the Internal Revenue Service Successfully Implemented
                                the Branded Prescription Drug Fee

 


    OUTCOME MEASURE

    Reduction of burden for five business taxpayers (i.e., covered entities) that filed *******1********
    ******************1************************ resulting, in part, from their incorrect
    interpretation of the temporary regulations.

    We agree with this Outcome Measure.




                                                                                                       Page  26 
